HHS/OIG, Audit -"Ineligible Medicare Payments to Skilled Nursing Facilities Under the Administrative Responsibility of Riverbend GBA,"(A-05-03-00015)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Ineligible Medicare Payments to Skilled Nursing Facilities Under the
Administrative Responsibility of Riverbend GBA," (A-05-03-00015)
April 4, 2003
Complete
Text of Report is available in PDF format (513 kb). Copies can also be
obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This OIG report estimates that $11.6 million in ineligible Medicare Skilled
Nursing Facility (SNF) payments were made under the administrative responsibility
of Riverbend Government Benefits Administrator (GBA) during calendar years
1997 through 2001.  The overpayments occurred because of the absence of
an automated cross-check between the Centers for Medicare and Medicaid Services
Common Working File and the Fiscal Intermediarys claims processing system
to verify that a three consecutive day inpatient hospital stay occurred prior
to SNF admission.  Riverbend generally agreed with OIG's recommendations.